LAW OFFICE OF CHARLES SEVILLA

ATTORNEY AT LAW

402 WEST BROADWAY, SUITE 720
CHARLES M. SEVILLA SAN DIEGO, CALIFORNIA 92101 (619) 232.2222
WWW.CHARLESSEVILLA.COM EMAIL CHUCK@CHARLESSEVILLA.COM FAX 644 4199
September 21, 2021

Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
Re: Wilson v. California, No. 20-1737
To the Clerk of the Court:

Irepresent petitioner Wilson in his pending petition before the Court. The case
is scheduled for conference on September 27, 2021. This letter is to update the
September 15th letter I sent the Court requesting a stay of consideration of the
petition given the pending Ninth Circuit case involving the identical search involved
in petitioner’s case.

Today, in United States v. Wilson, --- F.4th ---, No. 18-50440 (9th Cir. 2021),
the Ninth Circuit Court of Appeals issued a published opinion reversing the denial
of petitioner’s motion to suppress and vacating his federal convictions. See attached
declaration of attorney Devin Burstein and attached Opinion. This ruling creates a
split of authority on a very important Fourth Amendment issue, not only within the
same case, but also within the Circuits. See, e.g., United States v. Miller, 982 F.3d
412 (6th Cir. 2020).

Accordingly, a stay is appropriate for the Court to consider the Ninth Circuit
decision filed today.

We thank the Court for its consideration.
Respectfully submitted,
Ts
Mur | Sule
Charles M. Sevilla

Counsel for Petitioner Wilson

RECEIVED

SEP 23 2021

ce: Rob Bonta, Attorney laa State of California 5‘
Respondent SObSeny coum Us

 
I, Devin Burstein, declare the following is true:

1.

I represent Mr. Luke Wilson on appeal from his federal child
pornography convictions.

Today, in United States v. Wilson, --- F.4th ---, No. 18-50440 (9th
Cir. 2021), the Ninth Circuit Court of Appeals issued a published
opinion reversing the denial of his motion to suppress and vacating
his convictions. The opinion is attached. At issue was “whether
the government’s warrantless search of Wilson’s email attachments
was justified by the private search exception to the Fourth
Amendment.” Slip Op. at 6.

The search in the federal case is the exact same search that also
gave rise to the California state prosecution, which is the subject of
the pending petition for a writ of certiorari currently scheduled for
conference on September 27, 2021. See Wilson v. California, No.
20-1737.

The Fourth Amendment issue is identical in both the state and
federal appeals.

The Ninth Circuit opinion creates a split with the California Court
of Appeal on the same issue from the same search. It also creates
a split of authority with other Circuits. See United States v.
Reddick, 900 F.3d 686 (5th Cir. 2018); United States v. Miller, 982
F.3d 412, 427 (6th Cir. 2020).

Although Mr. Wilson is the prevailing party in the federal case,
given the importance of the issue, and in light of Mr. Wilson’s state
court life sentence, I intend to file a petition for a writ of certiorari.
I will file the petition by October 15, 2021.

On behalf of Mr. Wilson, I respectfully request the Court stay
consideration of his pending petition (No. 20-1737) until I have filed
the petition in the federal case.
I believe this stay will serve the interests of justice. To this end,
the Fourth Amendment analysis by the Ninth Circuit is far more
thorough and comprehensive than that of the California Court of
Appeal. As such, taken together, the cases will provide a superior
vehicle for review.

/s/ Devin Burstein

Devin Burstein
Warren & Burstein
